No.

In the Supreme Court of the United States
October Term 2021
TYRONE CADE,
Petitioner,
v.
STATE OF TEXAS,
Respondent.
On Petition for Writ of Certiorari
To the Court of Criminal Appeals of Texas
CERTIFICATE OF SERVICE
I certify that on August 30, 2021, I have served the PETITION FOR WRIT OF
CERTIORARI, APPENDICES, MOTION TO PROCEED IN FORMA PAUPERIS,
and CERTIFICATE OF COMPLIANCE WITH PAGE LIMITS on counsel of record
for
Respondent,
Ms. Cara Hanna,
Attorney General’s Office for the State of Texas,
Solicitor General Division,
209 W. 14th Street, Austin, TX 78711
(cara.hanna@oag.texas.gov)
All parties required to be served have been served. I am a member of the Bar of this
Court.

JOSEPH J. PERKOVICH
COUNSEL OF RECORD
Philips Black, Inc.
PO Box 4544
New York, NY 10163
212-400-1660 (tel.)
j.perkovich@phillipsblack.org

1

1

